             Offices of
         Inspector General


           Department of the Treasury
Board of Governors of the Federal Reserve System
      Federal Deposit Insurance Corporation



      Status of the Transfer of
Office of Thrift Supervision Functions


                    OIG-11-109
                 FRB OIG 2011-04
                   EVAL-11-005


                September 28, 2011
 
Contents



Audit Report

     Background ............................................................................................ 3

     Results of the Joint Review...................................................................... 4

         OTS Employees Transferred to FDIC and OCC as Outlined
         in the Plan ......................................................................................... 4


         Procedures and Safeguards Are in Place as Outlined in the Plan to Ensure
         that Transferred OTS Employees Are Not Unfairly Disadvantaged ............ 5

         OTS Authorities and Responsibilities Transferred to FDIC, FRB, and OCC as
         Outlined in the Plan ............................................................................ 8

         Substantially All OTS Funds Transferred to OCC as Outlined
         in the Plan ......................................................................................... 9

         OTS Property Transferred to FDIC, FRB, and OCC as Outlined
         In the Plan ......................................................................................... 9

         Other Matters Identified in Prior Report ................................................. 10

     Management Response and OIG Comment ................................................. 12

Appendices

  Appendix   1:      Objective, Scope, and Methodology ........................................             13
  Appendix   2:      Pay Structures .....................................................................   16
  Appendix   3:      FRB Management Comments .................................................              18
  Appendix   4:      OCC Management Comments ................................................               19
  Appendix   5:      Major Contributors to This Report ...........................................          20
  Appendix   6:      Report Distribution ................................................................   21




                     Status of the Transfer of Office of Thrift Supervision Functions                     Page i
Contents

Abbreviations

  Dodd-Frank Act       Dodd-Frank Wall Street Reform and Consumer Protection Act
  FDIC                 Federal Deposit Insurance Corporation
  FIRF                 Financial Institutions Retirement Fund
  FRB                  Board of Governors of the Federal Reserve System
  NBE                  National Bank Examiner
  OCC                  Office of the Comptroller of the Currency
  OIG                  Office of Inspector General
  OTS                  Office of Thrift Supervision
  Plan                 Joint Implementation Plan
  Title III            Transfer of Powers to the Comptroller of the Currency, the
                       Corporation, and the Board of Governors
  Treasury             Department of the Treasury




                   Status of the Transfer of Office of Thrift Supervision Functions   Page ii
                     Offices of Inspector General



                       September 28, 2011

                       Ben S. Bernanke, Chairman
                       Board of Governors of the Federal Reserve System

                       Martin J. Gruenberg, Acting Chairman
                       Federal Deposit Insurance Corporation

                       John G. Walsh, Acting Comptroller of the Currency
                       Office of the Comptroller of the Currency

                       John E. Bowman, Acting Director
                       Office of Thrift Supervision

                       This report presents the results of our offices’ joint review of the
                       status of the implementation activities of the Joint Implementation
                       Plan (Plan) prepared by the Board of Governors of the Federal
                       Reserve System (FRB), the Federal Deposit Insurance
                       Corporation (FDIC), the Office of the Comptroller of the
                       Currency (OCC), and the Office of Thrift Supervision (OTS). The
                       Plan detailed the steps the agencies were to take to carry out the
                       provisions of Title III, Transfer of Powers to the Comptroller of the
                       Currency, the Corporation, and the Board of Governors (Title III), of
                       the Dodd-Frank Wall Street Reform and Consumer Protection Act
                       (Dodd-Frank Act). Section 327 of Title III mandated an initial joint
                       review of the Plan by our offices to determine whether the Plan
                       conformed to relevant Title III provisions. We completed that
                       review and issued our report 1 on March 28, 2011, concluding that

1
 Department of the Treasury (Treasury) Office of Inspector General (OIG), FDIC OIG, and FRB OIG,
Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions,
OIG-11-064/FRB OIG 2011-02/EVAL-11-002 (Mar. 28, 2011).

                       Status of the Transfer of Office of Thrift Supervision Functions           Page 1
the Plan generally conformed to the relevant provisions of Title III.
We noted, however, that the Plan did not address the prohibition in
Title III against the involuntary separation or the involuntary
reassignment of a transferred OTS employee outside the
employee’s locality pay area for 30 months (except under certain
circumstances). In response to that recommendation, the agencies
amended the Plan in April 2011.

The objective of our current review, as defined by section 327,
was to determine and report on the status of the implementation of
the Plan. To accomplish our objective, we reviewed the actions
FRB, FDIC, OCC, and OTS have taken to implement the Plan. As
part of our work, we interviewed officials from FRB, FDIC, OCC,
and OTS, and reviewed relevant documentation. We conducted our
fieldwork from April 2011 to August 2011. Appendix 1 contains a
detailed description of our objective, scope, and methodology.

In brief, we concluded that FRB, FDIC, OCC, and OTS have
substantially implemented the actions in the Plan that were
necessary to transfer OTS functions, employees, funds, and
property to FRB, FDIC, and OCC, as appropriate. Certain aspects of
the Plan, as discussed below, are on-going or were not yet required
to be completed as provided in Title III.

In our March 2011 report, we reported that, while not impacting
our overall conclusion on the Plan, certain details needed to be
worked out to ensure that OTS employees were not unfairly
disadvantaged and an orderly transfer of OTS powers, authority,
and employees could be effectively accomplished. For example,
neither the number of employees to be transferred to OCC nor the
assignment of functions for those employees had been finalized at
the completion of our last review. Those details have largely been
resolved with the exception that the Acting Director of OTS has
not yet received a notice of position assignment from OCC. In this
regard, OCC has 120 days after the date the Acting Director is
transferred to OCC to issue the notice. Such transfer must occur
not later than 90 days after the transfer date (July 21, 2011). Title
III also provides for the OTS Director to have 90 days after the
transfer date to wrap up OTS affairs.




Status of the Transfer of Office of Thrift Supervision Functions   Page 2
                       Our March 2011 report also identified a concern expressed by OTS
                       officials related to additional OCC certification requirements in
                       order to qualify to lead examinations of national banks, in addition
                       to savings associations. OCC is addressing this matter with a
                       project to develop a cross-credentialing process for both OCC and
                       former OTS examiners, but has not estimated a date for its
                       completion. Finally, we are providing an update on several other
                       matters identified in our March 2011 report associated with the
                       transfer of OTS functions, including an OTS pension fund, savings
                       association assessments, and financial reporting by OTS.

                       In accordance with section 327, we will continue to monitor the
                       implementation of the Plan and the resolution of certain matters
                       discussed in this report.


Background
                       Title III of the Dodd-Frank Act sets forth provisions to address
                       problems and concerns in the multiple agency financial regulatory
                       system by abolishing OTS and transferring its powers and
                       authorities to FRB, FDIC, and OCC on July 21, 2011 (which for
                       purposes of the title is deemed the “transfer date”). All OTS
                       functions relating to federal savings associations, all OTS
                       rulemaking authority for federal and state savings associations, and
                       the majority of OTS employees were transferred to OCC. OTS’s
                       supervisory responsibility for state-chartered savings associations
                       and OTS employees to support these responsibilities were
                       transferred to FDIC; 2 and OTS’s authority for consolidated
                       supervision of savings and loan holding companies and their non-
                       depository subsidiaries were transferred to FRB. No OTS employees
                       were required to be transferred to FRB.

                       Section 327(a) of Title III required FRB, FDIC, OCC, and OTS to
                       jointly submit a plan within 180 days to the Congress and the
                       Inspectors General of FRB, FDIC, and Treasury, detailing the steps
                       they will take to implement the provisions of sections 301 through
                       326 of Title III. We and the Congress received the Plan fulfilling
                       this requirement on January 25, 2011.

2
 FDIC accepted the transfer of other OTS employees to fill actual and, to a limited extent, other
anticipated vacancies.

                       Status of the Transfer of Office of Thrift Supervision Functions             Page 3
              Section 327(b) of Title III required that within 60 days of receiving
              the Plan, the Inspectors General of FRB, FDIC, and Treasury jointly
              provide a written report to FRB, FDIC, OCC, and OTS, with copies
              to the Congress, that detailed whether the Plan conformed to the
              provisions of sections 301 through 326 and included any additional
              recommendations for an orderly and effective process. We jointly
              issued that report, Review of the Joint Implementation Plan for the
              Transfer of Office of Thrift Supervision Functions, on March 28,
              2011, fulfilling this requirement.

              Section 327(c) of Title III requires that, within 6 months of the
              Congress receiving the report, the Inspectors General of FRB, FDIC,
              and Treasury must jointly provide a written report on the status of
              the implementation of the Plan to FRB, FDIC, and OCC, with a
              copy to the Congress. Further, the Inspectors General of FRB,
              FDIC, and Treasury must jointly provide such a written report every
              6 months thereafter until all aspects of the Plan have been
              implemented.


Results of the Joint Review
              We concluded that FRB, FDIC, OCC, and OTS have substantially
              implemented the actions in the Plan that were necessary to transfer
              OTS functions, employees, property, and funds to FRB, FDIC, and
              OCC, as appropriate. Certain aspects of the Plan, as discussed
              below, are ongoing or were not yet required to be completed as
              provided in Title III.

              OTS Employees Transferred to FDIC and OCC as Outlined in the
              Plan

              We concluded that OTS employees were transferred to FDIC and
              OCC as outlined in the Plan. Ninety-five (95) OTS employees were
              transferred to FDIC, and 670 OTS employees were transferred to
              OCC.

              Title III, Section 322, required that each transferred OTS employee
              was to receive a notice of position assignment by
              November 18, 2011. OCC sent notices of position assignment to
              all OTS employees on May 6, 2011, with the exception of the

              Status of the Transfer of Office of Thrift Supervision Functions   Page 4
                       Acting Director of OTS. FDIC and the Consumer Financial
                       Protection Bureau subsequently made employment offers that, if
                       accepted by the OTS employee, essentially superseded the OCC
                       notices of position assignments as of June 1, 2011.

                       As noted in the Plan, the Acting Director is to remain at OTS to
                       wrap up its affairs during the 90-day period after the transfer date
                       (the 90-day period ends October 19, 2011). Accordingly, an OCC
                       official stated that they would not transfer the Acting Director to
                       OCC or provide a notice of position assignment to the Acting
                       Director until the wrap-up of OTS’s affairs is completed. 3

                       We noted in our March 2011 report that according to OCC, while
                       decisions had not been made at the time, OCC expected there
                       would be circumstances where it would be necessary to
                       involuntarily reassign an employee outside of his or her locality pay
                       area for the efficient operation of the agency. Since then, as of
                       August 31, 2011, OCC made eight such involuntary
                       reassignments. According to an OCC official, the transferees are
                       being reassigned because their positions were deemed necessary at
                       those OCC locations for the efficient operation of the agency,
                       which was an exception allowed to the general Title III prohibition
                       against the involuntary reassignment of employees for 30 months.
                       We consider these reassignments to be reasonable and in
                       accordance with Title III.

                       Procedures and Safeguards Are in Place as Outlined in the Plan to
                       Ensure that Transferred OTS Employees Are Not Unfairly
                       Disadvantaged

                       Based on interviews with FDIC, OCC, OTS officials, and former
                       OTS employees transferred to OCC, we concluded that FDIC and
                       OCC generally have procedures and safeguards in place as outlined
                       in the Plan to ensure that OTS employees are not unfairly
                       disadvantaged relative to employees of FDIC and OCC.

                       In our March 2011 report, we identified that OTS officials had
                       expressed a concern relating to OCC plans for requiring additional


3
 Title III, Section 313, Abolishment, states OTS and the position of the OTS director will be abolished
effective 90 days after the transfer date.

                       Status of the Transfer of Office of Thrift Supervision Functions            Page 5
                      certification for transferred OTS examiners 4 before they are
                      allowed to supervise national bank examinations. 5 In this regard,
                      OCC operates under a long-standing position that an examiner-in-
                      charge for a national bank must be an OCC-commissioned national
                      bank examiner (NBE). An additional OTS concern related to OCC’s
                      plans to assign the TG-18 OTS examiners to a newly created OCC
                      pay band. 6 This newly created pay band provides the same pay
                      range as the former OTS pay band, but with a lower salary ceiling
                      than journey-man level, NB-V commissioned OCC bank examiners.
                      The TG-18 OTS examiners will remain in that newly created pay
                      band until they earn an NBE commission or until they are selected
                      through competition to a higher band position that does not require
                      the NBE commission. See Appendix 2 for a description of OCC’s
                      new pay band for certain transferred OTS employees.

                      We also noted in our March 2011 report that OCC had contracted
                      with a consultant to study and identify any differences between
                      the OTS examiner accreditation process and the OCC Uniform
                      Commission Examination process. As an update, we found that the
                      consultant has completed its study and differences between the
                      two processes were identified. In this regard, OCC had not yet
                      estimated a completion date for revising the Uniform Commission
                      Examination testing process for the examiners. OCC contracted
                      with a consultant on July 29, 2011, for a project to validate the
                      Uniform Commission Examination; the consultant’s report is due
                      March 31, 2012. OCC was also still determining what alternative
                      qualification process will be required for certain OTS examiners to
                      acquire the NBE commission without taking the full Uniform
                      Commission Examination, based on their experience. This
                      alternative process will also include the certification of existing
                      NBEs as qualified to lead examinations of Federal savings

4
  OTS examiners who had earned an NBE commission during previous employment with the OCC are
not subject to this requirement.
5
  On the other hand, FDIC was not requiring additional certification for transferred OTS examiners
before they were able to supervise FDIC-regulated bank examinations.
6
  The affected OTS examiners held the title of Examiner III and they were at the OTS TG-18 grade level,
with the authority to sign off on reports of savings association examinations. According to OCC, being
a commissioned national bank examiner demonstrates that the individual has the requisite competence
in not only the full range of safety and soundness issues, but also asset management, bank information
systems, and compliance, while the OTS TG-18 examiner has only been accredited in safety and
soundness with the option to pursue an additional discipline such as compliance, asset management, or
bank information technology.

                      Status of the Transfer of Office of Thrift Supervision Functions           Page 6
                       associations. OCC is finalizing a statement of work for a
                       solicitation to hire a contractor to assist in this effort.

                       We interviewed 22 former OTS employees 7 who transferred to
                       OCC regarding the transfer process. In general, the employees
                       stated that they were treated fairly during the transfer process.
                       However, regarding the accreditation process, some of the
                       impacted employees continued to express concern that OCC had
                       not yet determined what additional examination requirements are
                       necessary to obtain the NBE commission.

                       In our March 2011 report, we discussed OTS’s concerns that there
                       would not be enough positions with the same functions for all OTS
                       transferred employees, including support staff, at OCC. For
                       example, with regard to management positions, the number of
                       proposed management positions available to OTS transferred
                       employees was fewer than the number of OTS authorized
                       management positions. Accordingly, there was concern that OTS
                       managers would be assigned to positions at least one level lower
                       than what they held at OTS. As we reported, OTS conveyed these
                       concerns to OCC through correspondence and meetings. OCC has
                       taken the position that the Dodd-Frank Act does not require OCC
                       to redesign or reorganize OCC’s structure so that OTS managers
                       are guaranteed particular positions. Rather, the Act provides that
                       transferred employees will be placed in positions at OCC and FDIC
                       responsible for the same functions and duties, to the extent
                       practicable (emphasis added). 8

                       In our interviews of the 22 former OTS employees, 2 employees
                       said that they felt that they were placed in positions where their
                       skills are not fully utilized, 7 employees said that they felt their
                       position assignments were downgraded, and 5 said that they felt

7
  We selected for interview a cross-cut of 22 former OTS employees transferred to OCC, which
included (1) 5 senior employees; (2) 10 examiners, including 6 examiners that were assigned to a newly
created OCC pay band; and (3) 7 employees performing various other administrative or technical
functions. Our interview questions related to the transfer process and their roles and responsibilities at
OCC relative to their roles and responsibilities at OTS.
8
  The applicable language from Title III, section 322(e)(2), states that, to the extent practicable, each
transferred employee shall be placed in a position at OCC or FDIC, as applicable, responsible for the
same functions and duties as the transferred employee had on the day before the date on which the
employee was transferred, in accordance with the expertise and preferences of the transferred
employee.

                       Status of the Transfer of Office of Thrift Supervision Functions             Page 7
that they were placed in positions with different duties than their
previous position at OTS. Nevertheless, the employees generally
acknowledged during the interviews that overall the transfer
process as carried out by OCC was fair.

Section 322 of Title III requires that a study of safeguards and
procedures be performed by OCC and FDIC to ensure transferred
OTS employees are not unfairly disadvantaged. The study is due
one year after the transfer date (July 21, 2012). We plan to review
and report on that study going forward.

OTS Authorities and Responsibilities Transferred to FDIC, FRB, and
OCC as Outlined in the Plan

We concluded that OTS authorities and responsibilities were
transferred to FDIC, FRB, and OCC, as outlined in the Plan. On
July 21, 2011, as planned, all OTS functions relating to federal
savings associations and all OTS rulemaking authority for federal
and state savings associations transferred to OCC; OTS’s
supervisory responsibility for state-chartered savings associations
transferred to FDIC; and OTS’s authority for consolidated
supervision of savings and loan holding companies and their non-
depository subsidiaries transferred to FRB.

In our March 2011 report, we noted that Title III transfers all
rulemaking authority for savings associations, both federal and
state, to OCC. At that time FDIC officials expressed concerns that
not transferring the state-chartered savings associations’
rulemaking authority to FDIC could inhibit FDIC’s ability to
effectively regulate the 61 state-chartered savings associations
being transferred to FDIC. However, FDIC officials have now said
there is less concern. Despite the initial thought that OCC had all
the rulemaking authority, FDIC officials concluded that FDIC does
have rulemaking authority when FDIC is “the appropriate federal
banking agency.” While the authority does not cover all of FDIC’s
responsibilities over state-chartered savings associations, it
narrows the areas of concern. Further mitigating FDIC’s concern is
that some regulations require interagency coordination, or such a
collaborative approach has been the practice even if not required,
and OCC has demonstrated a very collaborative approach
according to FDIC.


Status of the Transfer of Office of Thrift Supervision Functions   Page 8
Substantially All OTS Funds Transferred to OCC as Outlined in the
Plan

OTS funds totaling $282 million were transferred to OCC on
July 21, 2011. An additional $2.3 million related to the sale of
OTS-held Treasury securities that occurred just prior to the transfer
date was transferred to OCC on August 8, 2011. In addition, the
OTS Acting Director requested $2.25 million to wind up the affairs
of OTS. While held by OCC, the $2.25 million is kept separate
from the rest of OCC’s funds, and any remaining funds after the
wind-up will be transferred to OCC for its operations. We plan to
monitor and report on the disposition of these remaining funds in
our future work.

As noted in our prior report, FDIC and FRB determined that no OTS
funds would be transferred to them. However, as part of the
transfer of employees, we reported that OTS committed to fund
relocation expenses for transferring OTS staff to FDIC. As an
update, FDIC will pay to relocate 10 transferring OTS employees
and OCC, as successor to OTS, will reimburse FDIC for the
relocation expenses. At the time of this review, there are no
apparent outstanding issues for FDIC regarding transfer of funds.

OTS Property Transferred to FDIC, FRB, and OCC as Outlined in
the Plan

As required by Title III, OCC has 90 days after the transfer date
(October 19, 2011) to transfer all property. According to an OCC
official, all fixed assets were transferred to OCC and all other
physical property is scheduled to be transferred to OCC by
September 30, 2011. No OTS assets, information technology
systems, equipment, or other infra-structure were transferred to
FDIC. However, OTS provided FDIC and FRB with computers to
facilitate direct access to OTS systems that OCC will assume and
maintain until December 31, 2011. In addition, OTS provided its
records to FDIC, FRB, and OCC. Under a memorandum of
understanding, OCC will provide FDIC any records it requires for up
to 90 days after the transfer date.




Status of the Transfer of Office of Thrift Supervision Functions   Page 9
Other Matters Identified in Prior Report

In our March 2011 report, we reported on several other matters
associated with the transfer of OTS functions, including an OTS
pension fund, savings association assessments, and financial
reporting by OTS. Following is an update on those matters.

•   Underfunded Pension Plan: As noted in our prior report, most
    OTS employees participated in either the Civil Service
    Retirement System or the Federal Employees Retirement
    System, administered by the Office of Personnel Management.
    However, approximately 460 OTS retirees and 375 former OTS
    employees also participated in a separate retirement system, the
    Financial Institutions Retirement Fund (FIRF), which was funded
    by OTS. Under the Plan, OCC was to sponsor FIRF after the
    transfer date. As of July 1, 2010, FIRF had an estimated
    shortfall of $74.7 million. OCC has not been provided a final
    number by the plan administrator; however, as of
    July 29, 2011, OCC estimated the total shortfall to be
    approximately $85 million. According to an OCC official, OCC
    intends to fund, and has budgeted for, the entire FIRF shortfall
    in early fiscal year 2012.

    OTS employees transferred to FDIC will retain the same
    retirement plan they had at OTS. FDIC already has staff in the
    Civil Service Retirement System and the Federal Employees
    Retirement System, so providing those plans to OTS employees
    requires no specific FDIC action. OCC will continue to
    administer FIRF for all former OTS employees covered by that
    retirement system, including those who transferred to FDIC and
    to the Consumer Financial Protection Board. FDIC, as agreed in
    a memorandum of understanding, will reimburse OCC for the
    cost to administer FIRF for any OTS transferees in FIRF who
    became FDIC employees.

•   Supervisory Assessments: Section 318 of Title III, which relates
    to funding, states that OCC may collect assessments, fees, or
    other charges, as determined necessary or appropriate to carry
    out its responsibilities; and that the cost of conducting any
    regular examination or special examination may be assessed by
    FDIC against the institution or entity to meet the expenses of


Status of the Transfer of Office of Thrift Supervision Functions   Page 10
    FDIC in carrying out such examinations. With the transfer of
    OTS functions, federally-chartered savings associations will pay
    assessments to OCC. Consistent with FDIC’s current practice
    for state non-member insured depository institutions for which it
    is the primary federal supervisor, state-chartered savings
    associations will not pay FDIC assessments for examinations.
    Rather, FDIC is funded by premiums that financial institutions
    pay for deposit insurance coverage and from earnings on
    investments in U.S. Treasury securities. There has been no
    change in OCC’s and FDIC’s intentions for savings association
    supervisory assessments from our prior report, and we do not
    plan to report on this matter in the future.

    It should be noted that for savings and loan holding companies
    and bank holding companies with assets of $50 billion or more,
    and nonbank financial companies that FRB will be required to
    supervise pursuant to the Dodd-Frank Act, FRB is to collect a
    total amount of assessments, fees, or other charges that are
    equal to the expenses FRB estimates are necessary or
    appropriate to carry out its supervisory and regulatory
    responsibilities. To satisfy this requirement, a notice of
    proposed rulemaking for the assessments is currently being
    drafted, with collection anticipated to begin in 2012, retroactive
    to the transfer date.

•   OTS Financial Reporting for Fiscal Year 2011: Our March 2011
    report noted that OTS, OCC, and their respective auditors were
    determining the financial reporting requirements, presentation,
    and audit scope related to OTS’s fiscal year 2011 financial
    statements at that time. As an update, OTS will prepare final
    audited financial statements covering the period October 1,
    2010, to July 20, 2011.




Status of the Transfer of Office of Thrift Supervision Functions   Page 11
Management Response and OIG Comment
                    We provided a draft of this report to FRB, OCC, the Acting OTS
                    Director, and FDIC. We received written responses from FRB and
                    OCC and considered informal comments received from FDIC and
                    the Acting OTS Director.

                    FRB stated in its written response that it agrees with the
                    conclusion that the Federal Reserve has substantially implemented
                    the actions in the Plan that were necessary to transfer the OTS
                    supervision functions, employees, funds, and property to the
                    Federal Reserve, FDIC, and OCC, as appropriate. OCC stated in its
                    written response that it agrees with the conclusions in our report.

                    FRB’s and OCC’s written responses are included in this report as
                    appendices 3 and 4, respectively.



                                                      *******

                    We appreciate the courtesies and cooperation provided to our
                    staffs during the audit. If you wish to discuss the report, you may
                    contact Marla A. Freedman, Assistant Inspector General for Audit,
                    Treasury OIG, at (202) 927-5400; E. Marshall Gentry, Assistant
                    Inspector General for Evaluations, FDIC OIG, at (703) 562-6378; or
                    Anthony J. Castaldo, Associate Inspector General for Inspections
                    and Evaluations, FRB OIG, at (202) 973-5024. Major contributors
                    to this report are listed in Appendix 6.


/s/                             /s/                                       /s/

Eric M. Thorson                 Jon T. Rymer                             Mark Bialek
Inspector General               Inspector General                        Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System




                    Status of the Transfer of Office of Thrift Supervision Functions          Page 12
Appendix 1
Objective, Scope, and Methodology


As required by Title III, Transfer of Powers to the Comptroller of
the Currency, the Corporation, and the Board of Governors
(Title III), of the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank Act), the Board of Governors of the
Federal Reserve System (FRB), the Federal Deposit Insurance
Corporation (FDIC), the Office of the Comptroller of the Currency
(OCC), and the Office of Thrift Supervision (OTS) prepared a Joint
Implementation Plan (Plan) to accomplish the transfer of functions,
employees, property, and funds of OTS as well as implement other
provisions of Title III. We conducted this joint review to fulfill our
requirement under section 327(c) of Title III. This section requires
the Inspectors General of FRB, FDIC, and the Department of the
Treasury (Treasury) to provide a written report on the status of the
implementation of the Plan every 6 months until all aspects of the
Plan are implemented.

To accomplish this requirement, we performed the following work:

•   We reviewed the amended Plan as amended in April 2011. We
    reviewed the actions FRB, FDIC, OCC, and OTS have taken to
    implement the Plan.
•   We reviewed relevant FDIC documentation, such as Federal
    Register notices; memorandums of understanding for records
    sharing, retirement benefits, non-retirement benefits, and detail
    of staff; thrift reporting, staffing, and logistics meeting agendas
    and minutes; an amendment to the FDIC Savings Plan; selection
    and welcome letters; FDIC 2011 performance goals related to
    the transfer of OTS functions; and an announcement for FDIC
    voluntary expressions of interest to OTS staff.
•   We reviewed relevant FRB documentation, such as internal FRB
    correspondence, newly developed supervisory guidance for
    Savings and Loan Holding Companies, the interagency
    memorandum of understanding for transferring and sharing of
    OTS records, the interagency Federal Register notice to change
    OTS data reporting requirements, the Federal Register notice of
    intent to enforce certain regulations previously issued by OTS,
    and presentations by Federal Reserve supervisors to Savings
    and Loan Holding Company management.
•   We reviewed relevant OCC documentation, such as OCC’s
    interim final rule to reissue OTS regulations and OCC’s final rule
    to implement provisions of the Dodd-Frank Act; correspondence
    between OCC and OTS discussing the upcoming transfer of
Status of the Transfer of Office of Thrift Supervision Functions   Page 13
Appendix 1
Objective, Scope, and Methodology


    OTS; OCC’s notices of position assignment issued to OTS
    employees; the final report of the consultant hired by OCC to
    identify any differences between the OTS examiner
    accreditation process and the OCC Uniform Commission
    Examination process; and an OCC memorandum documenting
    the process for the final financial reporting by OTS and related
    audit approach.
•   With respect to FDIC, we interviewed officials involved in
    implementing the Plan, including the Deputy Director, Corporate
    Planning and Performance Management, Division of Finance;
    Acting Deputy Director for Human Resources, Division of
    Administration; Chief, Data Strategy Section and Acting
    Associate Director, Statistics Branch; Chief Information Officer
    and Director, Division of Information Technology; Deputy
    General Counsel, Supervision; and additional FDIC staff from
    the Division of Administration, the Division of Risk Management
    Supervision, and the Legal Division.
•   With respect to OCC, we interviewed the Senior Deputy
    Comptroller for Midsize/Community Bank Supervision, the
    Deputy Chief Counsel, the Deputy Comptroller for Human
    Resources, and the Senior Deputy Comptroller for Management
    and Chief Financial Officer.
•   We also interviewed 22 former OTS employees who transferred
    to OCC. The 22 former OTS employees included (1) 5 senior
    employees; (2) 10 examiners, including 6 examiners who were
    assigned to a newly created pay band; and (3) 7 employees
    performing various administrative or technical functions. Our
    interview questions related to the transfer process and their
    roles and responsibilities.
•   With respect to OTS, we interviewed the Acting Director and
    the Deputy Director. The Deputy Director has since retired from
    federal service.
•   With respect to FRB, we interviewed a Senior Associate
    Director, Division of Banking Supervision and Regulation; the
    Chief Financial Officer, Management Division; and mid-level and
    senior officials from the Division of Banking Supervision and
    Regulation, the Management Division, and the Legal Division.
•   We observed part of the OTS transferee staff orientation at
    FDIC on July 19, 2011.
•   We discussed and obtained documentation of the Thrift
    Reporting Staffing and Logistics working group activities.


Status of the Transfer of Office of Thrift Supervision Functions   Page 14
Appendix 1
Objective, Scope, and Methodology




Consistent with our objective, we did not assess FRB’s, FDIC’s,
OCC’s, or OTS’s overall internal control or management control
structure, obtain data from their information systems, or assess the
effectiveness of their information system controls. We conducted
our fieldwork at FDIC in Arlington, Virginia, and at FRB, OCC, and
OTS in Washington, DC, from April 2011 to August 2011.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Status of the Transfer of Office of Thrift Supervision Functions   Page 15
Appendix 2
Pay Structures


This appendix presents a description of the pay structures of the
Office of Thrift Supervision (OTS), the Office of the Comptroller of
the Currency (OCC), and the Federal Deposit Insurance Corporation
(FDIC), and OCC’s new pay band for certain transferred OTS
employees.

OTS Pay Structure

OTS had a 30-grade pay system, with grades 25 to 30 regarded as
the executive level. Salary ranges included a minimum, midpoint,
and maximum. Salary structures were also adjusted to reflect
geographic differences in the cost of living. OTS considered the
employee’s full salary as base-pay for all compensation
computations.

OCC Pay Structure

OCC has an 11-band pay system, with bands VIII and IX regarded
as the executive level. Minimum and maximum salaries are set
within each band, and salaries are adjusted based on merit. OCC
considers the band salaries as base pay and separately uses
geographic pay differentials when OCC finds significant differences
in living and/or labor costs for various metropolitan areas. Benefit
computations include base pay plus any geographic differential.

    New OCC Pay Band for Certain Transferred OTS Employees

    OCC created a new pay band (NB-V-T) for transferred OTS
    examiners having the examiner III title and at the TG-18 OTS
    grade level. The salary ranges ($56,032-$102,036) for both the
    new OCC pay band and OTS’s TG-18 grade level are identical.
    OTS transferees who are placed in the NB-V-T pay band will be
    eligible to receive special increases consistent with OCC policy.
    They will also move to the full NB-V pay band salary range
    ($64,400 - $119,900) when they earn a National Bank
    Examiner commission, which is a requirement of the NB-V level.
    In addition, they will receive a $3,000 bonus if they
    successfully complete the commissioning process on the first
    attempt. Alternatively, NB-V-T examiners can compete for NB-V
    bank examiner positions in large banks without acquiring a



Status of the Transfer of Office of Thrift Supervision Functions   Page 16
Appendix 2
Pay Structures


    National Bank Examiner commission, if they possess sufficient
    specialty expertise.

FDIC Pay Structure

FDIC has a 15-grade corporate grade (CG) structure for non-
supervisory employees; two corporate manager (CM) pay bands for
supervisory and managerial employees; a corporate expert (CX) pay
band for senior, non-supervisory and managerial employees; and an
executive management (EM) pay band for executive level
employees. Minimum and maximum salaries are set for each
grade/pay band. FDIC salaries include two components, base salary
and a locality pay adjustment. Benefits computations are based on
base pay plus locality pay. FDIC negotiates pay and benefits with
its employee union, and pay and benefits for its bargaining unit
employees are typically covered by multi-year negotiated
compensation. Because both the FDIC and OTS pay structures had
been previously cross-walked to the General Schedule, it was a
simple task to define specific cross-walks between the OTS and
FDIC pay structures (except for FDIC’s CM2 and EM grade
classifications).




Status of the Transfer of Office of Thrift Supervision Functions   Page 17
Appendix 3
FRB Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 18
 Appendix 4
 OCC Management Comments




OCC Draft Management Response Received on September 28, 2011


 Status of the Transfer of Office of Thrift Supervision Functions   Page 19
Appendix 5
Major Contributors to This Report




Board of Governors of the Federal Reserve System OIG

Timothy Rogers, OIG Manager
David Horn, Auditor and Project Lead
Jonathan Park, Auditor

Federal Deposit Insurance Corporation OIG

A. Michael Stevens, Evaluator-in-Charge

Department of the Treasury OIG

Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Bruce, Auditor-in-Charge
Kathryn Bustell, Auditor
John Tomasetti, Auditor
James Lisle, Referencer




Status of the Transfer of Office of Thrift Supervision Functions   Page 20
Appendix 6
Report Distribution


Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Acting Chairman

Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Thrift Supervision

    Acting Director

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Status of the Transfer of Office of Thrift Supervision Functions   Page 21
